U.S.P.S Tracking No.: EE 332 880 794 US

INDEX TO APPENDICES

APPENDIX A:

Unpublished Opinion of the Fourth Circuit Fourth Circuit Order
denying rehearing en banc (4 pages)

APPENDIX B:

U.S. District Court for the District of South
Carolina Text Order (2 pages)

APPENDIX C:

U.S. District Court for the District of South
Carolina Text Order (1 page)

APPENDIX D:

Magistrate Report and Recommendation (9 pages)

APPENDIX E:

U.S. District Court for the District of South
Carolina Opinion and Judgment (9 pages)

APPENDIX F:

Copy of Private Law 114-31 referencing Private Bill No.: S -112
(14 pages)

Page 29130

APPENDIX A

\

/

FILED: May 22, 2020
UNITED STATES COURT OF APPEALS '
FOR THE FOURTH CIRCUIT

No. 20-1183
(2:17-cv-02170-BHH)
NELSON L. BRUCE
Plaintiff - Appellant
v.
PENTAGON FEDERAL CREDIT UNION, a/k/a PenFed Credit Union
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/si PATRICIA S. CONNOR. CLERK

s
f

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1183
NELSON L. BRUCE,
Plaintiff - Appellant,
v.
PENTAGON FEDERAL CREDIT UNION, a/k/a PenFed Credit Union,
Defendant - Appellee.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. Bruce H. Hendricks, District Judge. (2:17-cv-02170-BHH)
Submitted: May 19, 2020

Decided: May 22, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Nelson L. Bruce, Appellant Pro Se. Michael A. Graziano, ECKERT SEAMANS CHERIN
& MELLOTT, LLC, Washington, D.C., for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Nelson L. Bruce appeals the district court’s text order denying his Fed. R. Civ. P.
60(b) motion seeking relief from the court’s prior order denying both his motion to compel
arbitration and a separate Rule 60(b) motion. We have reviewed the record and find no
reversible error. Accordingly, we affirm for the reasons stated by the district court. Bruce
v. Pentagon Fed. Credit Union, No. 2:17-cv-02170-BHH (D.S.C. Jan. 29,2020). We deny
Bruce’s motion to transfer this appeal to the United States Court of Appeals for the Federal
Circuit. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

2

FILED: June 23,2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1183
(2:17-cv-02170-BHH)
NELSON L. BRUCE
Plaintiff - Appellant
v.
PENTAGON FEDERAL CREDIT UNION, a/k/a PenFed Credit Union
Defendant - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

APPENDIX B

nttps://ecf.scd.circ4.dcn/cgi-bin/DisplayReceipt.pl?7200729075(

MIME-Version:1.0
Prom:SCDEf i lings tat@scd.uscourts .gov
B°cSCd-eCf-“e£®l0<!alhost•localdomain
aar2eniSsSSo»„"uiLB

=»itl>«nalso„n,ulli„s.com,
ns.com,

!nn,:r^tasJ=S™°S“™o™fS„CO"'

(hendricks_acf«Scd usSurtTUr0

),

8 B'UCe H°“e

Nicholas T Moraites

--Non Case Participants:
--No Notice Sent:
Message-Id:<9467270@scd. uscourts.gov>
Subject:Activity in Case
2:17-CV-02170-BHH Bruce v . Pentagon Federal Credit Union
on Motion to Vacate
Order

Content-Type: text/html
,hc CM/ECF system-Plcase DO N0T

parties^in a «se tocl ■?*'“ C°nfrmai of the U"i(‘d States policy permits
copy of all documeottfiledlrirnlo!, (T
8 ?” Se litiglm*s> ,0 re“h'e
free electronic

==S3p^SSSSSSL
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 1/29/2020 at 3:11 PM EST
and filed on 1/29/2020
Case Name:
Bruce v. Pentagon Federal Credit Union
Case Number:
2:17-cv-02170-RFTH
Filer:
WARNING: CASE CLOSED on 09/19/2018
Document Number: 95(No document attached)
Docket Text:
TEXT ORDER denying [89] Motion to Vacate,
After review, the Court finds no
merit to Plaintiff
Nelson
Bruce’s
. .a__,
,
arguments in his most recent motion to
Fed R Civ P finfM<1'« to™*.** P^intiiFf Is not entitled to relief pursuant to
Entered
lh* Court herebf denies Plaintiffs motion.
1/29/20 (nsw) d,reCt,°n of The Honorab|e Bruce Howe Hendricks on

2:17-cv-02170-BHH Notice has been electronically mailed to:
Benjamin Rush Smith, III

rush.smith@nelsonmullins.com, jessica.trautman@nelsomnullins.com

l of 2
1/29/2020, 3:30 PM

https://ecf.scdxirc4.dcn/cgi-bin/DisplayReceipt.pl77200729075i

Sarah B Nielsen (Terminated)
Nicholas T Moraites
Matthew Adams Abee

sarah.melsen@neIsonmuIlms.com, kim.smith@nelsonmullins.CDm

nmoraites@eckertseamans.com
matt.abee@nelsonmullins.com, kim.smith@nelsonmullins.com

2.17 cv 02170-BHH Notice will not be electronically mailed to:
Nelson L Bruce
144 Pavilion St
Summerville, SC 29483

:of2
1/29/2020, 3:30 PM

APPENDIX C

mtps://ect.scd.circ4.dcn/cgi-bin/Dispatch.pl? 1100304182470

Orders on Motions
2:17-cv-02170-BHH Brur.p \/
Pentagon Federal Credit i inirm
CASE CLOSED on 09/19/2018

appeal.closed, jury, prose
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 5/3/2019 at 1:56 PM EDT and filed
on 5/3/2019
Case Name:
Bruce v. Pentagon Federal Credit Union
Case Number:
2:17-cv-02170-RRH
Filer:
WARNING: CASE CLOSED on 09/19/2018
Document Number: 76(No document attached)
Docket Text:

motfon ?s that th«
?.September 19* 201 «■ The stated ground for the
.
s *ba* *be Part,es have recently entered into a new binding agreement/contract
during the appeal, which supposedly binds the partiesto dispose of the*
after the

74 3t 1“2,) p,aintiffrs motion was filed eight (8) days
by the Fourth Circuit Court off Appeals, of an unpublished opinion
dllmTss9/See PrJ«3 d-J^'V?Lti0« °f th* CaS® pursuant to Defendant's motion to
dismiss. (See ECF No. 73.) The Rule 60 motion is rambling and incoherent,
and has no
basis m fact. (See ECF No. 74.) The parties have not entered into the
»?hf^r^nt/C,°ntraCland a?dendum that Plaintiff represents, and there is no applicable
arbitration clause. Accordingly, both the Rule 60 motion (ECF No. 74) and the motion to
compel arbitration (ECF No. 75) are denied. Entered at the direction off Honorable
Bruce Howe Hendricks on 05/03/2019.(hada, )
2:17-cv-02170-BHH Notice has been electronically mailed to:
Benjamin Rush Smith, III

rush.smith@nelsonmullins.com, jessica.trautman@nelsonmullins.com

Sarah B Nielsen (Terminated)
Nicholas T Moraites
Matthew Adams Abee

sarah.nielsen@nelsonmullins.com, kim.smith@nelsonmullins.com

nmoraites@eckertseamans.com
matt.abee@neIsonmullins.com, kim.smith@nelsonmullins.com

2:17-cv-02170-BHH Notice will not be electronically mailed to:
Nelson L Bruce
144 Pavilion St
Summerville, SC 29483

l of 2

5/3/2019, 1:56 PM

APPENDIX D

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
BEAUFORT DIVISION
Nelson L. Bruce,
PLAINTIFF,
vs.
Pentagon Federal Credit Union (A.K.A
PenFed Credit Union) ect. [sic] all,
DEFENDANT.

)
)
)
)
)
)
)
)
)
)

C/A No. 2:17-CV-2170-BHH-MGB

Report and Recommendation

)

The Plaintiff, appearing pro se, filed the instant action on August 15, 2017. (Dkt. No. 1.)
The Plaintiff filed an Amended Complaint on September 25, 2017. (Dkt. No. 15.) Before the
court is Pentagon Federal Credit Union’s Motion to Dismiss (“Motion”). (Dkt. No. 37.) Pursuant
to the provisions of Title 28, United States Code, Section 636(b)(1) and Local Rule
73.02(B)(2)(e), D.S.C., all pretrial matters in cases involving pro se litigants are referred to a
United States Magistrate Judge for consideration. For the reasons stated herein, this court
recommends that Pentagon Federal Credit Union’s Motion to Dismiss (Dkt. No. 37) be granted.
Amended Complaint
The Amended Complaint is difficult to follow but contains the following allegations. All
of the events contained in the Amended Complaint occurred in Dorchester County, South
Carolina. (Dkt. No. 14 at 2.) The Defendant is a bank that advertised loans. (Id.) The Plaintiff
applied for a loan, but was refused. (Id.) The Defendant cannot produce an original promissory
note, but has produced a copy, which “purports to obligate” Plaintiff to pay $33,478.00 plus
interest for a current value of $37,222.71. (Id.) The Defendant “misrepresented” the “elements of
1

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 2 of 9

the alleged agreement.” (Id.) There “is no bona fide signature on the alleged promissory note”
and the “copy of the promissory note is a forgery that has been altered.” (Id.)
The Plaintiff alleges that the Defendant used the forged promissory note to fund “the
alleged bank loan cheque” to the Plaintiff. (Dkt. No. 14.) The Plaintiff alleges that the Defendant
“at no time loaned plaintiff legal tender or other ‘depositors’ money in the amount of ($33,
478.00)....” (Id. at 3.) The Plaintiff, in an apparent contradiction, alleges that the Defendant
changed the cost and “the risk” of the loan, “refused to disclose whether the cheque was the
consideration loaned for the alleged promissory note,” and refused to disclose material facts of the
alleged agreement....” (Id.) The Plaintiff alleges that he told the Defendant not to contact him
by telephone, but the Defendant continued to call him at least six times. (Id.)
The Plaintiff alleges that the contract with the bank to loan him money was void because
the lending officer “did not have the power under the Bank Charter to loan.. .the plaintiff credit.”
(Id. at 4.) The Plaintiff alleges that the Defendant has deprived him of his property for three
months through repossession. (Id.) The Plaintiff alleges that he made “good faith” payments on
the promissory note in the amount of $601.64 per month “until about June 12, 2016-July 12,
2017....” (Id.) On or about September 17, 2016, the Plaintiff requested “verification and
validation” of the alleged debt. (Id.)
The Amended Complaint states that it is brought under the Truth in Lending Act of 1968
(“TILA”), the Fair Debt Collection Practices Act (“FDCPA”), and South Carolina Code Sections
16-13-10, 32-3-10, and 32-3-20.1 (Dkt. No. 14 at 1.) The Plaintiff seeks injunctive relief,

In the Plaintiffs Opposition to Defendant’s Motion to Dismiss and Plaintiffs Counter Claims,
the Plaintiff states that the Amended Complaint contains claims that “not only arise under TILA,
but also every law including constitutional laws which are the supreme laws of the land..., acts of
congress that are law and everything incorporated in [the] Amended Compliant by reference,
statute or code.” (Dkt. No. 40 at 12.) The Plaintiff additionally lists two “counter claims.” (Id. at
2

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 3 of 9

declaratory judgment, and monetary damages including punitive, compensatory, and statutory
damages. {Id. at 5.)
Standard of Review
On a motion to dismiss pursuant to Rule 12(b)(6), a “complaint must be dismissed if it
does not allege ‘enough facts to state a claim to relief that is plausible on its face.’” Giarratano v.
Johnson, 521 F.3d 298, 302 (4th Cir. 2008) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). “In reviewing a motion to dismiss an action pursuant to Rule 12(b)(6) ... [a court]
must determine whether it is plausible that the factual allegations in the complaint are ‘enough to
raise a right to relief above the speculative level.’” Andrew v. Clark, 561 F.3d 261, 266 (4th Cir.
2009) (quoting Twombly, 550 U.S. at 555). “A plaintiffs obligation to provide the ‘grounds’ of
his ‘ entitle[ment] to relief requires more than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do.” Twombly, 550 U.S. 555 (quoting Papasan v.
Allain, 478 U.S. 265, 286 (1986)). A court may consider attachments to the complaint as well.
Philips v. Pitt Cty. Mem'lHosp., 572 F.3d 176, 180 (4th Cir. 2009) (citing Fed.R.Civ.P. 10(c)).
For purposes of a motion to dismiss, the district court must “take all of the factual
allegations in the complaint as truq.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). “In considering
a motion to dismiss, [the court] accept[s] the complainant’s well-pleaded allegations as true and
view[s] the complaint in the light most favorable to the non-moving party.” Stansbury v.
McDonald’s Corp., 36 F. App’x 98, 98-99 (4th Cir. 2002) (citing Mylan Labs., Inc. v. Matkari, 7
F.3d 1130, 1134 (4th Cir. 1993)). However, while the court must draw all reasonable inferences
12-16.) The court limits its analysis to the Amended Complaint and any claims that may be
broadly construed within it. The Plaintiff has not filed a motion to amend or supplement his
complaint to add any additional claims in accordance with Rule 15 of the Federal Rules of Civil
Procedure. “[I]t is axiomatic that the complaint may not be amended by briefs in opposition to a
motion to dismiss.” Myland Labs., Inc. v Akzo, N. V., 770 F. Supp. 1053, 1068 (D. Md. 1991)
(citing Car Carriers, Inc. v. Ford Motor Co., 745 F.2d 1101 (7th Cir. 1984)).
3

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 4 of 9

in favor of the plaintiff, it need not accept the “legal conclusions drawn from the facts, ...
unwarranted inferences, unreasonable conclusions or arguments.” Nemet Chevrolet, Ltd. v.
Consumerqffdirs.com, Inc., 591 F.3d 250, 253 (4th Cir. 2009) (citing Edwards v. City of
Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999); Giarratano, 521 F.3d at 298). l\P]ro se
complaints.. .are held to a less stringent standard than those drafted by attorneys, ... and a federal
district court is charged with liberally construing a complaint or petition filed by a pro se litigant
to allow the development of a potentially meritorious case.” Stout v. Robnett, 107 F. Supp. 2d
699, 702 (D.S.C. 2000) (internal quotations and citations omitted).
Analysis
1. TILA Claim
The Plaintiff has failed to state a claim under TILA and any attempt to amend the
Amended Complaint would be futile because of the statute of limitations. The purpose of TILA is
“to assure a meaningful disclosure of credit terms so that the consumers will be able to compare
more readily the various credit terms available ... and avoid the uninformed use of credit....” 15
U.S.C. § 1601(a). “TILA requires that a creditor make certain material disclosures at the time the
loan is made.” Gilbert v. Residential Funding LLC, 678 F.3d 271, 276 (4th Cir. 2012). Claims
seeking civil damages under TILA are governed by a one year statute of limitations, and must be
brought within one year of the date of the occurrence of the violation. 15 U.S.C. § 1640(e). “[A]
claim for damages under [the] TILA ... is subject to a one-year limitations period that begins to
run from the date the loan closed.” In re Cmty Bank ofN. Va., 622 F.3d 275, 303 (3rd Cir. 2010).
The Plaintiff simultaneously alleges in the Amended Complaint that he did not have a loan
with the Defendant—“the defendants at no time loaned the plaintiff legal tender...”—and that he
did have a loan with the Defendant but the Defendants hid material facts—“the defendant bank
4

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 5 of 9

refused to disclose material facts of the alleged agreement....” (Dkt. No. 14 at 3.) The Plaintiff
alleges that he “in good faith.. .continued to make payments in the amount of $601.64 to the
Defendant up until about June 17, 2016... ” and that he requested verification of the debt on
September 17, 2016. (Dkt. No. 14. at 4.)
Assuming that the Plaintiff did have some sort of lending agreement with the Defendant,
such an agreement existed prior to June 17, 2016 by the Plaintiffs own allegations. The Plaintiff
did not file this suit until August 15, 2017. (Dkt. No. 1.) Therefore, the Plaintiff did not file his
claims under TILA within the one year statute of limitations. The one year statute of limitations
under TILA runs from the time the loan closed. In re Cmty Bank ofN. Va., 622 F.3d 275, 303 (3rd
Cir.2010). Therefore, the Plaintiff has failed to state a claim under TILA and any amendment by
the Plaintiff would be futile.2
2. FDCPA Claim
The Plaintiff has failed to state a claim under the FDCPA and any attempt to amend the
Amended Complaint would be futile because FDCPA claims may not be brought against the
Defendant in this case. The FDCPA, 15 U.S.C. § 1692 etseq., was passed by Congress “to
eliminate abusive debt collection practices by debt collectors, [and] to insure that those debt
collectors who refrain from using abusive debt collection practices are not competitively
disadvantaged,” Jerman v. Carlisle, McNellie, Rini, Kramer & Ulrich LPA, 559 U.S. 573, 602
(2010) (quoting 15 U.S.C. § 1692(e)). “[T]he FDCPA purports to regulate only the conduct of
debt collectors, not creditors, generally distinguishing between the two based on whether the
person acts in an agency relationship with the person to whom the borrower is indebted.” Henson
v. Santander Consumer USA, Inc., 817 F.3d 131, 135 (4th Cir. 2016), cert, granted, 137 S. Ct.
2 To the extent the Plaintiff alleges that he did not have any loan with the Defendant, he could not
allege any claim under TILA.
5

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 6 of 9

810, 196 L. Ed. 2d 595 (2017), andaffd, 137 S. Ct. 1718, 198 L. Ed. 2d 177 (2017). Dismissal is
proper under Rule 12(b)(6) where a complaint fails “to allege facts demonstrating that [the
defendant] was acting as a ‘debt collector, as defined by [the FDCPA], when it was collecting on
debts owed by the plaintiff[].” Id. at 140.
As noted supra, the Plaintiff simultaneously alleges that the Defendant did and did not ,
provide him a loan. The Plaintiff alleges that he paid monthly payments to the Defendant through
June of 2016. (Dkt. No. 14. at 4.) To the extent the Plaintiff alleges any loan was made, the loan
was made by the Defendants to the Plaintiff. The FDCPA “distinguishes a ‘debt collector,’
which collects the debts due to another, from a ‘creditor,’ which seeks to collect on its own debts.
Hardnett v. M&T Bank, 204 F. Supp. 3d 851, 859-60 (E.D. Va. 2016), motion for relieffrom
judgment denied, No. 3:15-cv-622, 2017 WL 5639918 (E.D. Va. Apr. 13, 2017), andaffd sub
nom. Hardnett v. M & T Bank, 699 F. App'x 242 (4th Cir. 2017), and ajfd sub nom. Hardnett v.
M&T Bank, 699 F. App'x 242 (4th Cir. 2017). Therefore, as a creditor, the Defendant is not
subject to liability under the FDCPA. Davis v. Dillard Nat'l Bank, No. 1:02-cv-546, 2003 WL
21297331, at * 4 (M.D.N.C. June 4, 2003) (“Crediting institutions, such as banks, are not debt
collectors under [the FDCPA] because they collect their own debts and are in the business of
lending money to consumers”). The Plaintiff has failed to state a claim under the FDCPA. Any
amendment by the Plaintiff would be futile as the Plaintiff has alleged that the Defendant was the
Plaintiffs creditor for any loan he may have had.
3. Remaining State Law Claims
The Amended Complaint fails to allege a claim which falls within this court’s original
jurisdiction. The court must now determine whether it should exercise supplemental jurisdiction
over Plaintiffs state law claims under 28 U.S.C. § 1367(a). “The district courts may decline to
6

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 7 of 9

exercise supplemental jurisdiction over a claim under subsection (a) if...(3) the district court has
dismissed all claims over which it has original jurisdiction; or (4) in exceptional circumstances,
there are other compelling reasons for declining jurisdiction.” 28 U.S.C § 1367(c)(3)-(4). As
noted by the Fourth Circuit, “once a district court has dismissed the federal claims in an action, it
maintains ‘wide discretion’ to dismiss the supplemental state law claims over which it properly
has supplemental jurisdiction.” Yashenko v. Harrah's NC Casino Co., 446 F.3d 541, 553 n. 4 (4th
Cir. 2006) (quoting Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 353-54 (1988)). When
determining whether to exercise supplemental jurisdiction over state law claims, a district court
must consider “convenience and fairness to the parties, the existence of any underlying issues of
federal policy, comity, and considerations of judicial economy.” Shanaghan v. Cahill, 58 F.3d
106, 110 (4th Cir. 1995) (citing Cohill, 484 U.S. at 350 n. 7).
The Plaintiff s remaining claims, to the extent any are alleged, are brought exclusively
under state law.3 The Plaintiff has not alleged or argued any federal interest or right that these
claims would implicate. There is no harm to the parties if the court declines to exercise
jurisdiction over these claims. The undersigned recommends that the Plaintiffs state law claims,
to the extent he alleges any, be dismissed without prejudice.
Conclusion
Wherefore, it is RECOMMENDED that Pentagon Federal Credit Union’s Motion to
Dismiss (Dkt. No. 37) be GRANTED with prejudice as to the Plaintiffs TILA and FDCPA
claims and without prejudice as to the Plaintiffs state law claims.
Signature page attached.

3 The Plaintiff alleges he brings claims pursuant to South Carolina Code Section 16-13-10, a
criminal forgery statute, and Sections 32-3-10 and 32-3-20, which relate to agreements that must
be in writing under the statute of frauds. (Dkt. No. 14 at 1.)
7

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 8 of 9

IT IS SO RECOMMENDED.
July 24, 2018
Charleston, South Carolina

M^RYiJ<M)ON BAKER
UNITED STATES MAGISTRATE JUDGE

8

2:17-cv-02170-BHH

Date Filed 07/24/18

Entry Number 46

Page 9 of 9

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report
and Recommendation with the District Judge. Objections must specifically identify the
portions of the Report and Recommendation to which objections are made and the
basis for such objections. “[I]n the absence of a timely filed objection, a district court
need not conduct a de novo review, but instead must ‘only satisfy itself that there is no
clear error on the face of the record in order to accept the recommendation.’” Diamond v.
Colonial Life & Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72
advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of
service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b);
see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5
may be accomplished by mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 835
Charleston, South Carolina 29402
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of the
District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v.
Am, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir. 1985); United States v.
Schronce, 727 F.2d 91 (4th Cir. 1984).

APPENDIX E

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
BEAUFORT DIVISION
Nelson L. Bruce,
Plaintiff,
v.

)
)
)
)
)
)

Civil Action No. 2:17-cv-2170-BHH

Pentagon Federal Credit Union (A.K.A. )
PenFed Credit Union) ect. [sic], all,
)
Defendants.

ORDER

)
)

This matter is before the Court upon Defendant Pentagon Federal Credit Unions’s
(“Pentagon” or “Defendant”) motion to dismiss Plaintiff Nelson L. Bruce’s (“Bruce” or
“Plaintiff’) pro se amended complaint. In accordance with 28 U.S.C. § 636(b)(1)(B) and
Local Civil Rule 73.02(B)(2)(d) (D.S.C.), the matter was referred to a United States
Magistrate Judge for preliminary determinations.
On July 24, 2018, Magistrate Judge Mary Gordon Baker issued a Report and
Recommendation (“Report”) outlining the issues and recommending that the Court grant
Defendant’s motion to dismiss. Attached to the Report was a notice advising the parties
of their right to file written objections to the Report within fourteen days of being served with
a-copy. Following the Magistrate Judge’s order, Plaintiff filed objections and a motion for
summary judgment on August 9, 2018. In addition, on August 13, 2018, Plaintiff filed a
motion for preliminary injunction. Defendant filed responses to Plaintiff’s filings, and on
August 29, 2018, Plaintiff filed an amended motion for preliminary injunction. Defendant
again filed a response in opposition to Plaintiffs motion, and Plaintiff filed two replies. The
matters are ripe for review, and for the reasons set forth below, the Court adopts and

incorporates the Magistrate Judge’s Report; overrules Plaintiffs objections; and denies
Plaintiffs motions for summary judgment and for preliminary injunction.
BACKGROUND
As the Magistrate Judge explained in her Report, Plaintiffs amended complaint is
difficult to follow, but it includes the following allegations. Plaintiff asserts that he is the
owner of a BMW and that Defendant does “business in banking.” (ECF No. 14 at 2.)
According to Plaintiff, “Defendant bank advertised they loan money,” and “Plaintiff applied
for a loan of money.” (Id.) Plaintiff then contends that “Defendant refused to loan Plaintiff
legal tender or other depositors’ money” and that “Defendant misrepresented [ ] the
elements of the alleged agreement.” (Id.) Plaintiff states that there is not a “bona fide
signature on the alleged promissory note,” and that the copy of the note is a forgery that
“purports to obligate Plaintiff to pay [$33,478.00] plus interest.” (Id.) Plaintiff states that
“Defendant is referencing the altered forged promissory note as a loan from Plaintiff to the
bank,” but that “Defendant used this loan to fund the alleged bank loan cheque, back to
Plaintiff.” (Id.) Plaintiff further states that “Defendant at no time loaned Plaintiff legal tender
or other ‘depositors’ money” in the amount of $33,478.00 and that Defendant “changed the
cost and the risk of the alleged loan.” (Id. at 3.) Plaintiff contends that Defendant “refused
to disclose material facts of the alleged agreement, refusing to tell Plaintiff if the agreement
was for Plaintiff to fund the alleged bank loan cheque or if the Defendant was to use the
bank’s legal tender or other “depositors” [sic] money to fund the bank loan cheque.” (Id.)

Next, Plaintiff asserts that Defendant has violated the Fair Debt Collection Practices
Act (“FDCPA”) and that Defendant was asked to cease communication via telephone with
2

Plaintiff but ignored that request. (Id.) Plaintiff also alleges that Defendant created a void
contract because “the lending officer did not have the power under the Bank Charter” to
loan credit to Plaintiff, and Plaintiff asserts that Defendant violated the usury laws and
defrauded him in violation of federal banking laws. (Id. at 4.) In contrast to his prior
assertion that Defendant refused to loan Plaintiff money, Plaintiff then asserts that he “in
good faith continued to make payments in the amount of $601.64 to the Defendant up until
about June 17, 2016-July 12, 2017.” (Id.) Plaintiff claims he requested verification and
validation of the alleged debt around September 17, 2016, to prove that Defendant has
already been paid, but Defendant refuses to respond properly. (Id. at 4-5.) Plaintiff seeks
injunctive and declaratory relief as well as monetary damages. (Id. at 5-6.)
STANDARD OF REVIEW
I.

The Magistrate Judge’s Report
The Magistrate Judge makes only a recommendation to the Court.

The

recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. Mathews v. Weber, 423 U.S. 261 (1976). The Court
is charged with making a de novo determination only of those portions of the Report to
which specific objections are made, and the Court may accept, reject, or modify, in whole
or in part, the recommendation of the Magistrate Judge, or recommit the matter to the
Magistrate Judge with instructions. 28 U.S.C. § 636(b)(1). In the absence of specific
objections, the Court reviews the matter only for clear error. See Diamond v. Colonial Life
& Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating that “in the absence of a
timely filed objection, a district court need not conduct a de novo review, but instead must
‘only satisfy itself that there is no clear error on the face of the record in order to accept the
3

recommendation.’ “) (quoting Fed. R. Civ. P. 72 advisory committee’s note).
II.

Federal Rule of Civil Procedure 12(b)(6)
Under Federal Rule of Civil Procedure 8(a)(2), a pleading must contain a “short and

plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P.
8(a)(2). As the Supreme Court held in Bell Atl. Corp. v. Twombly, the pleading standard
set forth in Rule 8 “does not require ‘detailed factual allegations,’ but it demands more than
an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. 544, 555 (2007)). Thus, “[a] pleading
that offers ‘labels and conclusions’ or ‘a formulaic recitation of the elements of a cause of
action will not do.’” Id. “Nor does a complaint suffice if it tenders ‘naked assertions]
devoid of ‘further factual enhancement.” Id. (quoting Twombly, 550 U.S. at 557).
A motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6) examines
the legal sufficiency of the facts alleged on the face of a plaintiffs complaint. Edwards v.
City of Goldsboro, 178 F.3d 231,243 (4th Cir. 1999). To survive a Rule 12(b)(6) motion,
“[factual allegations must be enough to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555. The “complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its face.’ ” Iqbal, 556 U.S. at 678
(quoting Twombly, 550 U.S. at 570). A claim is facially plausible when the factual content
allows the court to reasonably infer that the defendant is liable for the misconduct alleged.
Id. When considering a motion to dismiss, the court must accept as true all of the factual
allegations contained in the complaint. Erickson v. Pardus, 551 U.S. 89, 94 (2007).
DISCUSSION

4

In her Report, the Magistrate Judge first analyzed Plaintiffs claim pursuant to the
Truth in Lending Act (“TILA”) and determined that Plaintiffs complaint fails to state a
plausible TILA claim. First, as the Magistrate Judge noted, Plaintiffs amended complaint
simultaneously alleges that he did not have a loan with Defendant and that he did have a
loan with Defendant. To the extent Plaintiff did not have a loan with Defendant, he could
not have a plausible TILA claim. On the other hand, assuming Plaintiff did have a loan with
Defendant, he specifically alleges that he “in good faith continued to make payments in the
amount of $601.64 to the Defendant up until about June 17, 2016-July 12, 2017.” (ECF
No. 14 at 4.) As the Magistrate Judge properly noted, it is clear from Plaintiffs own
allegations that some sort of lending agreement necessarily existed prior to June 17 of
2016. Importantly, because claims for damages under TILA are governed by a one-year
statute of limitations that begins to run from the date the loan closed, and Plaintiff did not
file this lawsuit until August of 2017, the Court agrees with the Magistrate Judge that
Plaintiffs TILA claim fails and any amendment would be futile.
Plaintiff objects to this conclusion by the Magistrate Judge and asserts that he did
not receive certain disclosures until August 19, 2016, rendering this action timely.

In

addition, he argues that he is entitled to equitable tolling pursuant to the doctrine of
fraudulent concealment. As Defendant points out in response to Plaintiffs objections,
however, Plaintiff himself asserts that he received a letter concerning the loan on July 17,
2016; indeed, Plaintiff apparently filed a copy of this letter along with his objections. (See
ECF No. 49-1 at 4-5.) Thus, Plaintiffs argument that the statute of limitations should began
to run on August 19, 2016, is without merit. Moreover, the Court agrees with Defendant
that Plaintiff has not shown that he is entitled to equitable tolling under the circumstances;
5

the Court also notes that TILA provides a clear limitations period and the discovery rule
does not apply. Overall, the Court finds Plaintiffs objections unavailing, and the Court
agrees with the Magistrate Judge that Defendant is entitled to dismissal with prejudice of
Plaintiffs TILA claim.
Next, the Magistrate Judge evaluated Plaintiffs FDCPA claim and likewise
determined that Plaintiff failed to state a claim and that any amendment would be futile
because FDCPA claims may not be brought against this Defendant, which by Plaintiffs own
allegations was acting as a “creditor” and not a “debt collector.” Henson v. Santander
Consumer USA, Inc., 817 F.3d 131,135 (4th Cir. 2016), cert, granted, 137S. Ct. 810,196
L. Ed. 2d 595 (2017), and affd, 137 S. Ct. 1718, 198 L. Ed. 2d 177 (2017) (“[T]he FDCPA
purports to regulate only the conduct of debt collectors, not creditors, generally
distinguishing between the two based on whether the person acts in an agency relationship
with the person to whom the borrower is indebted.”); see also Hardnett v. M&TBank, 204
F. Supp. 3d 851, 859-60 (E.D. Va. 2016), motion for relief from judgment denied, No.
3:15-cv-622, 2017 WL 5639918 (E.D. Va. Apr. 13, 2017), and affd sub nom. Hardnett v.
M&T Bank, 699 F. App'x 242 (4th Cir. 2017), and affd sub nom. Hardnett v. M &T Bank,
699 F. App'x 242 (4th Cir. 2017) (providing that the FDCPA “distinguishes a ‘debt collector,
which collects the debts due to another, from a ‘creditor,’ which seeks to collect on its own
debts).
Here again, Plaintiff objects to the Magistrate Judge’s conclusion and although it is
difficult to discern his arguments, he appears to acknowledge that Defendant is a creditor
but asserts that Defendant’s use of the mails renders it a debt collector regulated by the
FDCPA. The Court finds this argument wholly unavailing as there is no allegation that
6

Defendant ever used another name while collecting a debt, and the portion of the Federal
Trade Commission’s website, which Plaintiff cites in support of his argument, provides an
exemption for creditors only when the creditor uses another name in the process of
collecting its debts, which may indicate that a third party is collecting such debt. That is not
the case here, and the Court ultimately agrees with the Magistrate Judge that Defendant
is entitled to dismissal with prejudice of Plaintiffs FDCPA claim.
In her Report, the Magistrate Judge next recommended that the Court decline to
exercise supplemental jurisdiction over Plaintiff’s remaining state law claims, noting that
those claims do not implicate any federal right or interest, and that there would be no harm
to the parties if the Court declines to hear those claims. Plaintiff objects and asserts that
this case involves alleged violations of his constitutional rights and federal banking law.
After a thorough review of the matter, however, the Court finds Plaintiffs objections wholly
without merit. In all, the Court agrees with the Magistrate Judge that to the extent Plaintiff
alleges other claims, they arise under state law, and the Court declines to exercise
supplemental jurisdiction over those claims and dismisses them without prejudice.
Lastly, in light of the Court’s conclusions, the Court finds that Plaintiff is not entitled
to summary judgment and his motions for preliminary and permanent injunctions are
without merit. Accordingly, the Court denies those motions.
CONCLUSION
For the foregoing reasons, the Court adopts and incorporates the Magistrate Judge’s
Report (ECF No. 46) and grants Defendant’s motion to dismiss (ECF No. 37) with prejudice
as to Plaintiff’s TILA and FDCPA claims and without prejudice as to Plaintiff’s state law
claims. Therefore, the Court overrules Plaintiff’s objections (ECF No. 49), and the Court
7

denies Plaintiff s motions for summary judgment and preliminary and permanent injunctions
(ECF Nos. 48, 50, and 58).
IT IS SO ORDERED.
/s/Bruce H. Hendricks
The Honorable Bruce Howe Hendricks
United States District Judge
September 18, 2018
Charleston, South Carolina

8

2:17-cv-02170-BHH

Date Filed 09/19/18

Entry Number 66

Page 1 of 1

AO 450 (SCD 04/2010) Judgment in a Civil Action

United States District Court
for the
District of South Carolina
Nelson L Bruce,
Plaintiff

v.
Pentagon Federal Credit Union (A.K.A PenFed Credit
Union) ect. [sic] all,

)
)
)

Civil Action No. 2:17-cv-02170-BHH

)
)

Defendant

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
■ other: Having adopted the Report and Recommendation of Magistrate Judge Mary Gordon Baker, the Court dismisses
all claims of Plaintiff Nelson L. Bruce. Plaintiffs TILA and FDCPA claims are dismissed with prejudice and Plaintiffs
state law claims are dismissed without prejudice.
This action was:
■ decided by the Honorable Bruce Howe Hendricks, United States District Judge, ruling on the Report and
Recommendation of the Magistrate Judge.

Date: September 19, 2018

CLERK OF COURT
s/ V. Druce
Signature of Clerk or Deputy Clerk

APPENDIX F

V.jS. GCvU!:V'r KN r
l<n<rK ■■

1

\3F-Oy-p

PRIVATE LAW 114-31—DEC. 3, 2016

JUSTICE RELIEF FOR BRADLEY CHRISTOPHER
STARK, SHAWN MICHAEL RIDEOUT, AND
CERTAIN NAMED BEFECIARIES
ACT

Private Law 114-31
114th Congress

An Act
For the Relief of Bradley Christopher Stark, Shawn Michael Rideout,
and Certain Named Beneficiaries
Be it enacted by the Senate and House of Representatives of the United
States ofAmerica in Congress assembled.
SECTION 1. DEFINITIONS.
(a) Definitions. For the purposes of this Act—
(1) The term "Agreement" means—
(A) the Stipulation and Settlement Agreement of May 22,
2015;
(B) the Addendum to the Agreement dated August 7, 2015;
(C) the Addendum to the Agreement dated October 8, 2016;
and
(D) the Addendum to the Agreement dated December 21, 2015,
between Bradley Christopher Stark; Shawn Michael Rideout;
and the United States of America.
(2) The term "Attorney General" means the office of the Attorney
General of the United States.
(3) The terms "Award," "Interim Awards," and "Final Award" mean,
with respect to the Agreement, the final binding and non-appealable
decisions and remedies of the arbitrator awarded pursuant to the
Agreement.
(4) The term "Beneficiaries" means any one of the following
beneficiaries either individually or in any combination thereof or both(A) Jason Carl Thomas;
(i) Karen Andrea Burke-Haynes;
(ii) Janice Laurore;
(iii) Carlo Laurore;
(iv) Sharon Burke;
(v) Peter Burke;
(vi) Kisha Nicole Thomas;
(B) Demetriues Jermaine Hawkins;
(C) Katrina Glenn Hawkins;
(D) Balldev Naidu Ragavan;
(E) Hendrick Ezell Tunstall;
(F) Charles Elliot Hill, II;
(G) William Scott Hames;
(H) John Scot Snuggs;
(i) Nichola Dawn (Rose) Snuggs;
(ii) Timothy J. Snuggs;
(iii) Melissa M. Snuggs;
(iv) Elizabeth R. Snuggs;
(v) Robert D. Snuggs;
(I) Charles David Johnson, Jr.;
(i) Jeremy Johnson;
(ii) Scott Johnson;
(iii) Jonathan Fultz;
(iv) Jessica Reynolds-Toms;
(v) Herbert Walker;
(J) Bryan Samuel Coffman;

Dec. 3,2016
[S. 112]

Justice Relief for Bradley
Christopher Stark, Shawn
Michael Rideout, and
Certain Named
Beneficiaries.

(i) Megan A. Coffman;
(ii) Daniel P. Coffman;
(iii) Corbin A. Coffman;
(iv) Tabitha C. Coffman;
(v) Erin Jacobs;
(K) Meagan Eleanor (Russell) Kemp;
(i) Eleanor Joye Kemp;
(ii) Patrick Sebastian Kemp;
(L) Lulummba Clay Travis;
(M) Michael Tsalickis;
(N) William Michael Cain;
(O) Jerry Garwood Mitchell;
(P) Shane Reed Wilson;
(Q) Jason Wesley Tate;
(R) Viola Cheney;
(S) Madison Elizabeth (Stark) Liebel;
(T) Barbara Jean Stark;
(U) John William Stark, Jr.;
(V) Jeffrey Marc Schonsky;
(W) Nino Spagnuolo;
(X) Dominik Maier;
(Y) Curtis Colwell;
(Z) Douglas Colwell;
(AA) Kathleen DeWeese;
(BB) Daniel DeWeese;
(CC) Richard Rideout;
(DD) Brian Rideout; and
(EE) Nicole Rideout.
(5) The term "Corporate Beneficiaries" means any one of the following
beneficiaries individually or in any combination thereof or both(A) JPMorgan Chase Bank, N.A.;
(B) Morgan Stanley;
(C) Royal Bank of Scotland;
(D) CreditSuisse;
(E) Bank of America, N. A.;
(F) Wells Fargo;
(G) Citigroup/Citibank, N.A.;
(H) HSBC;
(I) Barclays, PLC;
(J) Goldman Sachs;
(K) BNP Paribas;
(L) Deutsche Bank, AG;
(M) Union Bank of Switzerland (UBS)
(N) British Petroleum;
(O) Transocean;
(P) GlaxoSmithKline; and
(Q) Vo Iks Wagon.
(6) The term "FAA" means the Federal Arbitration Act as described in
title 9 of the United States Code [9 U.S.C. 1-16].
(7) The term "immediate family" shall mean the living natural mother
or father, or both; or the adoptive mother or father, or both; the natural
maternal grandmother or grandfather, or both; the natural paternal
grandmother or grandfather, or both; any natural, half, step, or adopted
brothers or sisters, or both; spouses; all natural and legally adopted
children; and all natural and legally adopted grandchildren of the parties
and the beneficiaries that are natural persons named in this Act; except

that the term "immediate family" shall not apply to the maternal or
paternal grandparents of any adoptive parents of the parties or
beneficiaries that are natural persons named in this Act.
(8) The term "parties" means either of the following parties of the first
part of the Agreement either individually or in conjunction with one
another or both(A) Bradley Christopher Stark; and
(B) Shawn Michael Rideout.
(9) The term "person" shall mean any individual, partnership,
association, joint stock company, trust, or corporation named in this Act,
including any immediate family member or relevant employee to which
this Act relates and may affect, except that the term "natural person" shall
only refer to any living human being that is a party, beneficiary, or
immediate family member as described in this Act and shall not mean
any partnership, association, joint stock company, trust, or corporation.
(10) The term "records" shall mean all records, system ofrecords, library
catalogs, lists, files, optical, electronic and physically stored information
that relates to the named parties and beneficiaries in this Act.
(11) The term "Trust" as used in this Act means the Superfund and any
designated Justice Relief Fund or account established by section 6 of this
Act.
(12) The term "United States" as used in this Act means(A) the United States of America;
(B) the government of the United States, or
(C) in the geographic sense, all fifty States, Territories, and
Possessions of the United States.
The United States of America is the party of the second part of the
Agreement.
SECTION 2. FINDINGS OF CONGRESS.
(a) The Congress finds the following:
(1) That the United States by and through the Attorney General entered
into an Agreement with the Parties.
(2) The Agreement is a valid and binding settlement agreement between
the Parties and the United States that operates in the nature of a releasedismissal agreement.
(3) The Agreement contained an alternative dispute resolution clause that
provided for arbitration as the exclusive remedy for relief to the Parties
and the United States.
(4) The United States consented to the arbitration and the awards made
thereunder for the equitable relief of the Parties and the United States are
binding.
(5) Congress hereby expressly waives any defenses to the equitable
relief awarded to the Parties, Beneficiaries, and Corporate Beneficiaries
by the arbitrator.
(6) The parties, beneficiaries and their immediate family members, and
the corporate beneficiaries are entitled to the relief established by the
Agreement, the Awards, and the provisions of this Act notwithstanding
any other law to the contrary. Provided that, Joey Brandon Kemp shall
not be entitled to any relief or benefits established by the Agreement, the
Awards, and this Act.
SECTION 3. PURPOSE.

(a) The purpose of this Act is to provide the effective relief and enforcement of
the obligation of promises, terms, and conditions of the Agreement between the
parties and the United States of America.
SECTION 4. AFFIRMATIVE RELIEF.
(a) All parties and beneficiaries that are natural persons and their immediate
family that are confined in any jail, prison, penal institution, correctional
institution, or any other form of official or unofficial detention under the authority
of any State, Territory, Possession, or Federal Agency of the United States, shall
be unconditionally released from any such detention and set at liberty immediately
and without further delay.
(b) All pending legal actions and adjudicated cases by the United States of
America, any State, Territory, or Possession of the United States against the
parties, beneficiaries, and their immediate family whether criminal, civil,
administrative, sounding in tort, or otherwise, are vacated and dismissed with
prejudice, being void ab initio and are of no further force and effect as of the date
of this Act and retroactively applied to the day preceding the initial filing of any
such suit or action.
(c) All real and personal property, and funds that were seized, forfeited, or taken
by legal process or otherwise, by the United States of America, any State,
Territory, or Possession of the United States is to be immediately returned to the
appropriate parties, beneficiaries, and immediate family members to which the
property relates, including, but in no way limited to the property specifically
named in the Agreement and Awards. Any property that is not able to be returned
in as close to its original form shall be redressed by compensation in an amount
of money to the party, beneficiary, or immediate family member that is equal to
the highest reasonable value of said property; and specifically, but not in any way
limited to(1) Charles Elliott Hill, II, shall have the right to select 1500 acres of
land from the Chattahoochee National Forest as compensation for the
loss of his prime riverfront estates, farm, and real property with fixtures;
(2) Brian Samuel Coffman, shall be compensated in the amount of
$13,987,000 payable from the accounts of the Department of Justice by
the Secretary of the Treasury for the seizure of his financial accounts,
automobiles, and vessel;
(3) John Scot Snuggs, shall be compensated in the amount of $11,321
payable from the accounts of the Department of Justice by the Secretary
of the Treasury for the seizure of monetary instruments;
(d) All records and system of records in the possession of the United States of
America, any State, Territory, or Possession of the United States that relate to or
name the parties, beneficiaries that are natural persons, and their immediate family
shall be expunged and destroyed; and from the date of this Act, no such records
or system of records shall be maintained on any individuals named in this Act
without the permission by the express voluntary signature after full disclosure and
notice of the contents and purpose of said record or system of records being
provided to the individual to whom the record relates.
(e) The parties and beneficiaries that are natural persons shall have the absolute
right to the issuance of a land patent by the United States with title held in fee
simply absolute in possession for any real property purchased, ceded, or
quitclaimed so as to transfer ownership and title to any party or beneficiary to
which this subsection relates.
(f) The United States Patent Office shall issue a full process patent to Charles
Elliott Hill, II, for the "Red Muds Environmental Cleanup Process" having been
formerly issued the provisional patent number 112956 U.S. PTO 60/919621.

(g) The Secretary of the Treasury is authorized to credit the sum of $1,000,000 to
the appropriate trust funds established by this Act for the benefit of the parties and
beneficiaries named in accordance with the terms of the Agreement and Awards.
SECTION 5. PROHIBITORY RELIEF.
(a) The parties and beneficiaries that are natural persons, along with their
immediate family, are extended absolute immunity from all criminal, civil, and
administrative laws of the United States of America, any State, Territory, or
Possession of the United States, and no court or tribunal of the United States shall
have authority to exercise jurisdiction over the prosecution or litigation against
the parties and beneficiaries, along with their immediate family, for offenses and
violations of said laws; provided, that such immunity shall be subject to the
remedial conditions established by this Act.
(b) The United States shall not prosecute a criminal or civil offense against any
beneficiary named herein that is not a natural person for any violations or offenses
against the laws of the United States that were committed prior to the date of this
Act.
SECTION 6. TRUST FUNDS AND MONETARY RELIEF.
(a) Creation oftrust fund. There is established in the Treasury ofthe United
States a trust fund to be known as the 'Justice Relief Superfund' (hereinafter in
this section referred to as the 'Superfund'), consisting of such amounts as may be(1) appropriated to the Superfund as provided in this section,
(2) appropriated to the Superfund pursuant to section 7(c) of this Act, or
(3) credited to the Superfund as provided in section 2.
(b) Transfers to superfund. There are hereby appropriated to the Superfund
amounts equivalent to(1) the total monetary relief calculated and established in the Agreement
received by the Department of Justice in the accounts from monetary
penalties, asset forfeitures, seizures, and settlements during the fiscal
year period beginning October 1, 2008 and ending through October 1,
2016,
(2) all attributable moneys recovered from the corporate beneficiaries
pursuant to section 7(b) of this Act, and
(3) all moneys gifted by the Bradley Christopher Stark Justice Relief
Fund for the benefit ofthe States and Congressional Districts within the
States as set forth in this section.
(c) Expenditures from Superfund.
(1) IN GENERAL. Amounts in the Superfund shall be available, as
provided in this section, only for the purposes of making expenditures(A) to carry out the purposes of(i) funding the individual trust funds established under
this section for the benefit of the parties, beneficiaries,
and immediate family members of the Agreement as
defined in this Act,
(ii) funding community and public works projects in
all 50 States and the individual electoral districts
therein as set forth in this section, and
(iii) funding the Presidential Library ofthe incumbent
President signing this Act into law, or
(B) hereafter authorized by law which does not authorize the
expenditure out of the Superfund for a general purpose not
covered by subparagraph (A) (as so in effect).
(d) Liability of the United States limited to amount in trust fund.

(1) GENERALRULE. Any claim filed against the Superfund may be paid
only out of the Superfund.
(2) Coordination with other provisions. Nothing in this Act (or
in any amendment made by later Acts) shall authorize the payment by
the United States Government of any amount with respect to any such
claim out of any source other than the Superfund.
(3) ORDER IN WHICH UNPAID CLAIMS ARE TO BE PAID. If at anytime
the Superfund has insufficient funds to pay all the claims payable out of
the Superfund as such time, such claims shall, to the extent permitted
under paragraph (1), be paid in full in the order in which they were finally
determined.
(e) Creation of sub-trust funds. There is established in the Treasury of the
United States certain sub-trust funds under the Superfund to be known as(1) Bradley Christopher Stark Justice Relief Fund.
(A) Barbara Jean Stark Justice Relief Fund.
(B) John William Stark Justice Relief Fund.
(C) Madison Elizabeth Stark Justice Relief Fund.
(D) Jeffrey Marc Schonsky Justice Relief Fund.
(E) Nino Spagnuolo Justice Relief Fund.
(F) Dominik Maier Justice Relief Fund.
(2) Shawn Michael Rideout Justice Relief Fund.
(A) Kathleen DeWeese Justice Relief Fund.
(B) Daniel DeWeese Justice Relief Fund.
(C) Richard Rideout Justice Relief Fund.
(D) Brian Rideout Justice Relief Fund.
(E) Nicole Rideout Justice Relief Fund.
(3) Jason Carl Thomas Justice Relief Fund.
(A) Karen Andrea Burke-Haynes Justice Relief Fund.
(B) Janice Laurore Justice Relief Fund.
(C) Carlo Laurore Justice Relief Fund.
(D) Sharon Burke Justice Relief Fund.
(E) Peter Burke Justice Relief Fund.
(F) Kisha Nicole Thomas Justice Relief Fund.
(4) Demetriues Jermaine Hawkins Justice Relief Fund.
(5) Katrina Glenn Hawkins Justice Relief Fund.
(6) Balldev Naidu Ragavan Justice Relief Fund.
(7) Hendrick Ezell Tunstall Justice Relief Fund.
(8) Charles Elliot Hill, II Justice ReliefFund.
(9) William Scott Hames Justice ReliefFund.
(10) John Scot Snuggs Justice Relief Fund.
(A) Nichola Dawn (Rose) Snuggs Justice ReliefFund.
(B) Timothy J. Snuggs Justice ReliefFund.
(C) Melissa M. Snuggs Justice ReliefFund.
(D) Elizabeth R. Snuggs Justice ReliefFund.
(E) Robert D. Snuggs Justice ReliefFund.
(11) Charles David Johnson, Jr. Justice ReliefFund.
(A) Jeremy Johnson Justice Relief Fund.
(B) Scott Johnson Justice ReliefFund.
(C) Jonathan Fultz Justice ReliefFund.
(D) Jessica Reynolds-Toms Justice Relief Fund.
(E) Herbert Walker Justice ReliefFund.
(12) Bryan Samuel Coffman Justice ReliefFund.
(A) Megan A. Coffman Justice Relief Fund.
(B) Daniel P. Coffman Justice Relief Fund.
(C) Corbin A. Coffman Justice ReliefFund.
(D) Tabitha C. Coffman Justice ReliefFund.

(E) Erin Jacobs Justice Relief Fund.
(13) Meagan Eleanor (Russell) Kemp Justice Relief Fund.
(A) Eleanor Joye Kemp Justice Relief Fund.
(B) Patrick Sebastian Kemp Justice Relief Fund.
(14) Lulummba Clay Travis Justice Relief Fund.
(15) Michael Tsalickis Justice Relief Fund.
(16) William Michael Cain Justice Relief Fund.
(17) Jerry Garwood Mitchell Justice Relief Fund.
(18) Shane Reed Wilson Justice Relief Fund.
(19) Jason Wesley Tate Justice Relief Fund.
(20) Viola Cheney Justice Relief Fund.
(21) Curtis Colwell Justice Relief Fund.
(22) Douglas Colwell Justice Relief Fund.
(23) Community Projects and Public Works Fund of the United States
Senate.
(24) Congressional Districts Community Projects and Public Works
Fund of the United States House of Representatives.
Said sub-trust funds shall consist of such amounts as may be appropriated or
credited to such sub-trust fund as provided in this section or in the Agreement.
(f) Transfers to sub-trust funds. There are hereby appropriated from the
Superfund amounts equivalent to(1) on the date this enactment takes effect, $1,000,000, per sub-trust
fund and account listed under subsection 5(e)(1)—(22),
(2) one month after the date this enactment takes effect(A) 4,811,478,257, for the Bradley Christopher Stark Justice
Relief Fund,
(i) $200,000,000, shall be set off from the Bradley
Christopher Stark Justice Relief Fund and credited to
the Community Projects and Public Works Fund ofthe
United States Senate established by this section. Each
United States Senator shall be allocated $2,000,000,
per Senator for the purposes of community and public
works projects within Senator's respective States,
(ii) $870,000,000, shall be set off from the Bradley
Christopher Stark Justice Relief Fund and credited to
the Congressional Districts Community Projects and
Public Works Fund of the United States House of
Representatives established by this section. Each
United States Representative shall be allocated
$2,000,000, per Representative for the purposes of
community and public works projects within their
respective State Congressional Districts,
(B) $813,913,043, for the Shawn Michael Rideout Justice
Relief Fund,
(C) $7,999,826,080, for the Jason Carl Thomas Justice Relief
Fund,
(D) $6,298,434,777, for the Demetriues Jermaine Hawkins
Justice Relief Fund,
(E) $812,347,826, for the Bryan Samuel Coffman Justice
Relief Fund,
(F) $812,347,826, for the John Scot Snuggs Justice Relief
Fund,
(G) $812,347,826, for the Charles David Johnson, Jr. Justice
Relief Fund,
(H) $812,347,826, for the Lulummba Clay Travis Justice
Relief Fund,

(I) $14,291,457,392, for the Charles Elliott Hill, II Justice
Relief Fund,
(J) $20,347,827, for the William Scott Hames Justice Relief
Fund, and
(K) $17,120,000, for the Michael Tsalickis Justice Relief Fund.
(3) Amounts that are analogous to the funds named in subsection (e) of
this section and are received by the United States Government as trustee
shall be deposited in the Superfund for credit to the appropriate sub-trust
fund or account in the Treasury. Except as provided in subsection (j),
amounts accruing to these funds are appropriated to be disbursed in
compliance with the terms of the trust.
(g) Expenditures.
(1) In GENERAL. The amounts in the Superfund and sub-trust funds
shall be available for the purposes of making expenditures or transfers
as directed by the beneficiaries of the named sub-trust funds to the
Managing Trustee and Trustees as appropriate.
(2) RECORDS. Notwithstanding any other provision of this Act, the
Managing Trustee shall keep a transactional record of expenditures,
appropriations, and credits of the Superfund and sub-trust funds for the
purposes of accurate accounting and shall further close the appropriate
sub-trust funds or Superfund once all amounts are exhausted and no
further appropriations or credits are pending.
(h) Management of trust funds.
(1) Report. It shall be the duty of the Secretary of the Treasury to hold
the Superfund and each sub-trust fund established under this section, and
(after consultation with any other trustees of the sub-trust funds) to report
to the Congress each year on the financial condition and the results of
the operations of the Superfund and each such sub-trust fund during the
preceding fiscal year and on its expected condition and operations during
the next 3 fiscal years. Such report shall be printed as a House document
of the session of the Congress to which the report is made.
(2) TRUSTEES. The Secretary of the Treasury shall be the Managing
Trustee of the Superfund and each such sub-trust fund established under
this Act. Each sub-trust fund that contains other sub-trust fund accounts
shall have the main beneficiary of the controlling sub-trust fund
designated as a co-Trustee along with the Secretary of the Treasury for
the management of the individual sub-trust fund accounts thereunder.
(3) INVESTMENT.
(A) In GENERAL. It shall be the duty of the Secretary of the
Treasury to invest such portions of the Superfund or any sub­
trust fund established by this Act as is not, in his judgment,
required to meet current withdrawals. Such investments may
be made only in interest-bearing obligations of the United
States. For such purpose, such obligations may be acquired(i) in original issue at the issue price, or
(ii) by purchase of outstanding obligations at the
market price.
(B) Sale of obligations. Any obligation acquired by the
Superfund or a sub-trust fund established by this Act may be
sold by the Secretary of the Treasury at the market price.
(C) Interest on certain proceeds. The interest on, and
the proceeds from the sale or redemption of, any obligations
held in the Superfund or any sub-trust fund established by this
Act shall be credited to and form a part of the Superfund or
related sub-trust fund.

(i) The amounts appropriated by this Act to the
Superfund or any sub-trust fund established by this
Act shall be transferred at the request of the
beneficiaries to the trustees at least monthly from the
Superfund to such sub-trust fund on the basis of
estimates made by the Secretary of the Treasury of the
amounts referred to in such section,
Proper
adjustments shall be made in the amounts
subsequently transferred to the extent prior estimates
were in excess of or less than the amounts required to
be transferred.
(j) Limitations on use of funds. The Superfund and any individual sub-trust
fund or account established by this Act, and the appropriations in said funds, are
hereby prohibited from being used to influence any legislation and shall not be
made directly available for campaign financing or personal use by any United
States Senator or Member of the United States House of Representatives; nor any
officer, employee, or agent of any federal agency in the Executive Branch; nor
any Judicial Officer or Clerk of any federal court of the United States within the
Judicial Branch.
(1) None of the activities of the Superfund or sub-trust fund or account
established by this Act shall be conducted in a manner inconsistent with
any law that prohibits attempting to influence legislation.
(2) The Superfund or any such sub-trust fund or account established by
this Act may not participate in or intervene in any political campaign on
behalf of (or in opposition to) any candidate for public office, including
by publication or distribution of statements.
(k) Unclaimed moneys. On September 30 of each year, the Secretary of the
Treasury shall transfer to the Treasury trust fund receipt account "Unclaimed
Moneys of Individuals Whose Whereabouts are Unknown" that part of the
balance of a sub-trust fund or account established by this Act that has been in the
fund for more than one year and represents money belonging to individuals whose
whereabouts are unknown. Subsequent claims to the transferred funds shall be
paid from the account "Unclaimed Moneys of Individuals Whose Whereabouts
are Unknown".
(l) CLOSING OF accounts. Any sub-trust fund or account established by this
Act that is available for an indefinite period shall be closed, and any remaining
balance (whether obligated or unobligated) in that account shall be canceled and
thereafter shall not be available for obligation or expenditure for any purpose, if(1) no disbursement has been made against the appropriation for two
consecutive fiscal years.
(m) Regulations. Not later than 90 days after the date of enactment of this
Act, the Secretary of the Treasury shall prescribe regulations to carry out this
section.
SECTION 7. TAX RELIEF.
(a) The parties, beneficiaries, and their immediate family members, are
permanently exempt from all federal, state, and local taxes for the rest of their
natural lifespan. Provided that, Joey Brandon Kemp shall not be exempted from
any federal, state, or local taxes.
(b) The corporate beneficiaries named in this Act are exempt from federal income
tax for a period of three consecutive years from the effective date of the enactment
of this Act. Provided that,(1) the Bradley Christopher Stark Justice Relief Fund,
(2) the Shawn Michael Rideout Justice Relief Fund, and
(3) the Bryan Samuel Coffman Justice Relief Fund

shall recover a total amount of ten percentum of the projected federal income tax
liability benefits under this subsection attributable to the corporate beneficiaries
named in this Act, to be divided coequally among the sub-trust funds listed in this
subsection during the three consecutive year time period this subsection remains
in effect. Such amounts shall be due by no later than April 15 of the taxable year
immediately following the effective date of the enactment of this Act and shall be
deposited in the Superfund at the United States Treasury established by this Act
as an appropriation for further credit to the sub-trust funds named in this
subsection.
SECTION 8. REMEDIES.
(a) Any party or beneficiary entitled to and granted immunity by this Act, having
been found guilty, by clear and convincing evidence, to have committed a Class
A felony offense as defined under title 18 of the United States Code, shall be
subject to permanent removal from the United States of America, its territories,
and possessions, and such guilty party or beneficiary shall have their citizenship
permanently revoked.
(b) Nothing in this section shall be construed to authorize any accused party or
beneficiary entitled to or granted immunity by this Act to be placed in the custody
of any law enforcement officer for the purpose of confinement in any jail, prison,
or other fonn of official or unofficial detention.
(c) The Supreme Court of the United States shall have original jurisdiction
pursuant to Article III, section 2, clause 2 of the Constitution, to conduct a
criminal trial or other appropriate proceedings of any party or beneficiary entitled
to or granted immunity by this Act, to determine the guilt or innocence of such
party or beneficiary in accordance with subsection (a) of this section. Any trial
or proceedings shall be conducted in the Supreme Court of the United States, and
any orders or judgments entered thereon, in absentia if the accused party or
beneficiary shall be found to have fled the jurisdiction of the Supreme Court.
(d) The Federal Rules of Evidence along with the appropriate Federal Rules of
Criminal Procedure shall be used in the conduct of any trial and proceedings in
the Supreme Court in accordance with subsection (a) of this section. The Supreme
Court may, in its discretion, apply any rules of the Federal Rules of Civil
Procedure it deems necessary to the conduct of proceedings under this section.
(e) Alternative dispute resolution procedures are not authorized to be used to
conduct any proceedings under this section.
(f) A judgment of the Supreme Court finding that any party or beneficiary
entitled to or granted immunity by this Act, that is guilty of committing a Class A
felony offense as defined in title 18 of the United States Code, shall sentence the
party or beneficiary to the sole and exclusive punishment established by this
section, and shall in no way terminate any other affirmative, prohibitive, or
monetary relief established by this Act, nor any other right or privilege established
by the Constitution, any laws, or treaties of the United States.
SECTION 9. ENFORCEMENT.
(a) The Congress shall have power to enforce the provisions of this Act by
appropriate legislation.
SECTION 10. EFFECTIVE DATE.
(a) This Act shall take effect sixty days after enactment.

Mac Thornberry
Speaker of the House of Representatives pro tempore.
John Cornyn
Acting President of the Senate pro tempore.

IN THE HOUSE OF REPRESENTATIVES, U.S.
September 28, 2016.
The House of Representatives having proceeded to reconsider the bill (S. 112) en-titled “An Act
for the Relief of Bradley Christopher Stark, Shawn Michael Rideout, and Certain Named
Beneficiaries.’’, returned by the President of the United States with his objections, to the Senate, in
which it originated, and passed by the Senate on reconsideration of the same, it was
Resolved. That the said bill do pass, two-thirds of the House of Representatives agreeing to pass
the same.
Karen L. Haas
Clerk.

LEGISLATIVE HISTORY—S. 112:
CONGRESSIONAL RECORD, Vol. 162 (2016):
Aug. 17, considered and passed Senate.
Sept. 9, considered and passed House.
DAILY COMPILATION OF PRESIDENTIAL DOCUMENTS (2016):
Sept. 9, Presidential veto message.
CONGRESSIONAL RECORD, Vol. 162 (2016):
Sept. 28, Senate and House overrode veto.
CONGRESSIONAL RECORD, Vol. 162 (2016):
Oct. 18, amended and re-introduced in the Senate.
Nov. 17, considered and passed Senate.
Nov. 22, considered and passed House.
DAILY COMPILATION OF PRESIDENTIAL DOCUMENTS (2016):
Dec. 3, Presidential signature message.
7E

U.S.P.S Tracking No.: EE 332 880 794 US

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing will be
electronically mailed to all parties on the service list via the: UNITED STATES
POSTAL SERVICE by the UNITED STATES POST OFFICE via Postage Prepaid
PRIORITY Mail.
SENT TO:
ECKERT SEAMANS
CHERIN & MELLOTT, LLC
Michael A. Graziano
1717 Pennsylvania Ave., N.W., 12th Floor
Washington, D.C. 20006
(202)659-6671
Counsel ofRecord Attorneyfor Appellee (s)

“Without Prejudice”

Nelson L. Bruce, Propria Persona, Sui Juris
All Natural Rights Explicitly Reserved and Retained
U.C.C. 1-207/1-308, 1-103.6
c/o 144 Pavilion Street
Summerville, South Carolina 29483
ph. 843-437-7901
Email: leonbruce81@yahoo.com

Page 30130

